No. 20-1627

In The

Supreme Court of the United States
____________________
Richard Ducote, Esq., Victoria McIntyre, Esq., & S.S.,
Petitioners
v.
S.B.,
Respondent
____________________
On Petition for a Writ of Certiorari to the
Supreme Court of Pennsylvania
____________________
BRIEF IN OPPOSITION
____________________
Elisabeth Pride, Esq.
Pride Law LLC
4607 Library Road
Suite 220, #438
Bethel Park, PA 15102
Voice & fax: 412-343-3183
epride@pride-law.com
Counsel of Record
Counsel for Respondent

i

STATEMENT OF QUESTION FOR REVIEW
Did the Pennsylvania Supreme Court err in affirming the trial court’s tailored
restriction on speech that was harmful to a child?

ii
TABLE OF CONTENTS
Statement of Question for Review .......................................................................... i
Parties to the Proceedings (clarification) ............................................................. iii
Related Proceedings (additional) .......................................................................... iii
Table of Authorities.............................................................................................. iv
Counterstatement of the Case ............................................................................... 1
Reasons for Denying the Petition .......................................................................... 5
1. The Petition fails to conform to Supreme Court Rules ........................ 5
2. Petitioners’ objection to the decision of the Pennsylvania court
rests not on the First Amendment but on construction of the trial
court’s order ................................................................................................. 6
3. The opinion below is in harmony with First Amendment
jurisprudence of other states .................................................................... 11
4. The opinion below offers nothing new to other courts........................ 15
5. The free speech rights of custody litigants are not extraordinary
nor unlimited ............................................................................................. 18
6. There is no special First Amendment problem in family courts........ 18
7. The Pennsylvania courts properly and conventionally applied
appropriate First Amendment precedent to the trial court’s order ........ 20
Conclusion ............................................................................................................ 26

iii
PARTIES TO THE PROCEEDINGS
To clarify from Petitioners’ statement of the parties, Petitioners Richard
Ducote, Esq. and Victoria McIntyre, Esq. were not counsel in the Allegheny
County, Pennsylvania, Court of Common Pleas custody case until after conclusion
of that case and appeal to the Pennsylvania Superior Court.
RELATED PROCEEDINGS
Petitioners omit from their statement of related proceedings cases filed by
them in the U.S. District Court for the Western District of Pennsylvania and the
U.S. Court of Appeals for the Third Circuit:
1. Silver v. Court of Common Pleas of Allegheny County, 802 Fed.Appx.
55 (3d Cir. 2020).
2. Susan Silver, MD; Richard Ducote, Esq.; Victoria McIntyre, Esq., v.
Court of Common Pleas of Allegheny County and the Honorable Kim Berkeley
Clark, in her official capacity, D.C. No. 2-18-cv-00494.

iv
TABLE OF AUTHORITIES
Rules
Supreme Court Rule 14(1)(a) ................................................................................. 5
Supreme Court Rule 14(1)(g) ................................................................................. 5
Supreme Court Rule 14(1)(h)................................................................................. 6
Supreme Court Rule 14(2) ..................................................................................... 6
Cases
Bey v. Rasawehr, 161 N.E.3d 529, 533 (Ohio 2020) ........................................... 12
Broadrick v. Okla., 413 U.S. 601, 608 (1973)...................................................... 11
Care and Protection of Edith, 659 N.E.2d 1174, 1175-76 (Mass. 1996) ............ 13
Clark v. Community for Creative Non-Violence, 468 U.S. 288 (1984) ............... 10
D.P. v. G.J.P., 636 Pa. 574 (2016)........................................................................ 13
Globe Newspaper v. Superior Court, 457 U.S. 596 (1982) .................................. 22
Hiller v. Fausey, 904 A.2d 875, 886 (Pa.2006) .................................................... 13
In Interest of FG, 421 P.3d 1267 (Haw. 2018) ..................................................... 13
In Interest of Summerville, 547 N.E.2d 513 (Ill. App. Ct. 1989) ....................... 16
In re Detroit Free Press, No. 210022, 1999 WL 33409948 (Mich. Ct. App.
Nov. 23, 1999).................................................................................................. 16
In re J.S., 640 N.E.2d 1379, 1381 (Ill. App. Ct. 1994). ....................................... 17
In re Macomb Daily, 620 N.W.2d 10 (Mich. 2000).............................................. 16
In re Marriage of Suggs, 93 P.3d 161, 163-66 (Wash. 2004) .............................. 14
In re N.B., 146 A.3d 146 (N.H. 2016) .................................................................. 15

v
In re R.J.M.B., 133 So.3d 335, 339-346 (Miss. 2013) ........................................ 13
Johanson v. Eighth Judicial Dist. Court of State of Nev. ex rel. County of
Clark, 182 P.3d 94, 96-100 (Nev. 2008) ......................................................... 14
Minn. Voters Alliance v. Mansky, 138 S.Ct. 1876 (2018) .................................. 11
Papachristou v. City of Jacksonville, 405 U.S. 156 (1972) ........................... 11, 23
Reed v. Town of Gilbert, 576 U.S. 155 (2015) ................................................... 8, 9
Sable Communications of Cal v. FCC, 492 U.S. 115 (1989) .................. 10-11, 13
Shak v. Shak, 144 N.E. 3d 274, 278-280 (Mass. 2020) ....................................... 14
Turner Broad. Sys. Inc. v. FCC, 512 U.S. 622 (1994) ........................................... 9
U.S. v. O'Brien, 391 U.S. 367 (1968) ................................................................... 10
Ward v. Rock Against Racism, 491 U.S. 781 (1989) ............................................. 9

1
BRIEF IN OPPOSITION
COUNTERSTATEMENT OF THE CASE1
The parties in the underlying case are the legal parents of a son
(hereinafter “Child”), who was born on August 14, 2006, in Guatemala. When he
was one week old, Child was identified for adoption by the Respondent and his
wife and was brought home by them upon finalization of his adoption when he
was six months old. Less than a year later, Child’s mother was terminally ill and
his father, Respondent, was his primary caregiver. Child’s mother died when he
was two years old, after almost 20 years of marriage to Respondent. Respondent
raised Child alone for more than four more years, staying close to Child’s
maternal grandparents and aunts and uncles.

Petitioner2 married the

Respondent in September of 2012 and moved into his house the following year.
Immediately following Petitioner’s hasty adoption of Child in April 2013,
Petitioner undertook to push Respondent out of Child’s life and soon moved out
of Respondent’s home, taking Child with her.
A few days after Respondent received an interim order increasing his
custody time with Child pending trial on his Complaint in Custody, Petitioner

Respondent takes liberties with his Counterstatement of the Case as the underlying facts of this
case are not part of this record but were known to the state courts and largely recited in the trial
court’s findings, and it should be noted that Petitioners have taken the same liberties in their
Petition. The facts of the custody case were established therein, and reference may be made to
Respondent’s brief and the Reproduced Record in that case, decided against Petitioner by the
Pennsylvania Superior Court at No. 74 WDA 2017.
1

Respondent refers herein to the individual litigant in the underlying custody case as “Petitioner”
and to her and her counsel collectively as “Petitioners.”
2

2
filed a Protection From Abuse (“PFA”) Petition against Respondent claiming
sexual abuse of Child3, triggering an automatic termination of Respondent’s
custody. Petitioner’s PFA petition was dismissed after five (5) days of trial over
two and a half months, but succeeded in isolating Child from Respondent, his
extended family, friends, school, rabbi, and everyone else in his former life, as
Petitioner worked tirelessly to sever his attachments to Respondent and the rest
of his family and former life.4 After a total of twenty-two (22) days of trial,
including the incorporated record of the lengthy PFA proceeding, Respondent was
awarded sole custody of Child for ninety (90) days to permit reunification while
Petitioner took steps to ameliorate her damaging behaviors. Petitioner
unsuccessfully appealed that order to the Pennsylvania Superior Court5, and the
Pennsylvania Supreme Court declined to review the case. Petitioner refused to
take any steps toward reunification with Child and has voluntarily foregone all
contact with him since December 12, 2016.6 She has, however, continued to
compulsively litigate the case and to flout Orders for her economic support of

3 The

principal accusation in the first PFA petition was that Respondent had touched Child’s penis
while changing his diaper when he was a baby. Serious allegations were not raised until
Petitioner filed a second Petition for PFA claiming rape of the child after dismissal of the first
Petition following a 5-day trial and shortly after a trial date was set in the custody case. By that
time Respondent and the rest of Child’s family had not seen or spoken with him for months.
By the time the PFA Petition was dismissed, Petitioner insisted Child was refusing all contact
with Respondent and the rest of his family and the trial court declined to enforce any contact
pending resolution of the custody matter, which didn’t happen for another year.
4

Petitioner unsuccessfully sought Kings Bench intervention by the PA Supreme Court during the
Superior Court appeal.
5

Petitioner claims that the Court terminated her custody of Child but in fact she was given a
straightforward path to resume custody after 90 days, which she refused to take.
6

3
Child, leading to hearing after hearing and argument after argument and appeal
after appeal, including this one, with the apparent twin goals of attracting media
attention and impoverishing Respondent.
In addition, Petitioner and her counsel (“Petitioners”) have undertaken a
publicity campaign to smear Respondent and air their view of the case and the
issues under consideration therein, analogizing the silencing of victims of sexual
abuse with the judicial findings of the trial court after a twenty-two-day custody
trial. In doing so, as in the Petition for Writ of Certiorari herein, they carefully
cherrypicked from among the hundreds of exhibits and twenty-two days of
testimony (including the child’s contradictory testimony)7 that led to the trial
court’s custody decision that it is not Respondent but Petitioner who poses a
danger to the child, and publicly posted brief graphic excerpts of Child’s testimony
and forensic interview (which, incidentally, resulted in a finding that the abuse
allegation was “unfounded”), with identifying information about Child. That
Petitioner carefully selects out-of-context salacious excerpts from Child’s statements but omits
that Child’s sexual descriptions were delivered cheerfully by rote without suggestion of trauma,
resembled not actual sex acts but a child’s imagination thereof, were accompanied by dozens of
highly bizarre non-sexual accusations, were highly inconsistent and evolved and escalated
precisely in tandem with Petitioner’s litigation needs, were delivered only after many months of
isolation by Petitioner from all who loved him, and were accompanied in evidence by a shocking
audiotape of the child weeping privately to Petitioner that he could not remember the abuse
Petitioner insisted he had endured, and Petitioner’s assurance that he would eventually
remember it if he continued to describe it. In fact, most of the abuse Petitioner claimed Child had
endured was reported through her, and both Petitioner’s and Child’s reports were almost
uniformly fanciful and bizarre. Child was examined by two different forensic evaluators, and the
case included a custody evaluator, a psychological evaluator and guardian ad litem (requested by
Petitioner) who recommended Child’s immediate removal from Petitioner many months before it
actually happened. Virtually all of Petitioner’s witnesses gave testimony favorable to Respondent,
including Petitioner’s psychological expert, who ratified the phenomenon of parental alienation
with accompanying false reports of sexual abuse, that Petitioner, with new counsel, now denies.
See the Pennsylvania Superior Court Reproduced Record at 74 WDA 2017 and Respondent’s
Superior Court brief in that case, thoroughly reviewing the evidence, with references thereto.
7

4
included placing a story with the news media and holding a press conference
which was posted online with Dropbox access to selected graphic and misleading
materials from the case.

Finding that it would be harmful to Child, the trial

court precluded Petitioners’ dissemination of information that could tie their
statements to Child, but expressly permitted them to exercise their First
Amendment rights so long as the child’s identity was protected. Tellingly, and
typically, Petitioners reproduce a portion of the trial court’s order in their
Statement of the Case, but omit without acknowledgement of the omission that
portion of the trial’s order found most relevant by the Pennsylvania courts to
understanding it:
This Order does not prohibit any party or counsel from publicly
speaking or expressing an opinion about the Judge, including
disclosing the entry of this Order of Court, after the [Dropbox]
information has been removed as set forth, above. However, such
expression shall NOT contain the name of the Child or other
information, which would tend to identify the Child.
Petition at 6-7, citing Appendix to Petition (hereinafter “Appendix”), page 78a79a (emphasis original).8
Petitioners unsuccessfully appealed the trial court’s order to the Superior
Court and the Supreme Court of Pennsylvania while also filing suits against the
trial court judge and the Court of Common Pleas of Allegheny County in the U.S.

Note that Petitioners’ Table of Contents erroneously places the trial court’s findings and order
at page 73a but it does not begin until the following page.
8

5
District Court for the Western District of Pennsylvania and the Third Circuit
Court of Appeals, which refused jurisdiction. See Related Proceedings herein,
supra at ii.
REASONS FOR DENYING THE PETITION
1. The Petition fails to conform to Supreme Court Rules.
Initially, it must be observed that the Petition for a Writ of Certiorari
(hereinafter “Petition”) fails to comply with Supreme Court Rules in numerous
respects and serves primarily as a vehicle for the airing of Petitioners’ extreme
discontent with the trial court’s underlying custody order which is not at issue
here. Supreme Court Rule 14(1)(a) requires that questions presented for review
“should be short and should not be argumentative or repetitive” and that the page
should contain no further information.

By contrast, Petitioners’ question

presented for review is accompanied on the page by an argument. Petition, p.i.
Rule 14(1)(g) directs “[a] concise statement of the case setting out the facts
material to consideration of the questions presented,” in contrast to Petitioners’
statement, the first three pages of which largely comprise short out-of-context
salacious excerpts from Child’s testimony in the custody matter and illuminate
Petitioners’ primary position that that case was wrongly decided.9 Rule 14 sets
out the contents of the Petition, making no allowance for Petitioners’ insertion of

It does not escape Respondent’s notice that his responsive brief sets forth his own recitation of
facts from the underlying case, primarily to correct Petitioners’ breathtaking misrepresentation
of the record of that case. The Court may, however, permit the Petition to help illuminate the
social and psychological danger to the child posed by his identification in connection with
Petitioners’ speech.
9

6
an argument between their Table of Authorities and statement of Opinions Below
(Petition at 1-2), and Rule 14(2) specifically precludes argument outside the
Argument section of the Petition. Finally, Rule 14(1)(h) mandates a “direct and
concise argument amplifying the reasons relied on for allowance of the writ,” and
references Rule 10. In particular in their third and fourth reasons (Petition, p.14
et seq.), Petitioners argues that there can be no restriction (“definitive protection”)
on the speech of parents and their lawyers in relation to custody trials, by way of
a protracted primal scream citing dozens of articles purporting to support
Petitioners’ perspective that Petitioner is a victim of family courts that exist to
prey on children and protect abusers,10 all of which, of course, are utterly
irrelevant to the First Amendment question raised by the Petition. See esp.
Petition n.6-10 and pp.vii-ix.
2. Petitioners’ objection to the decision of the Pennsylvania
court rests not on the First Amendment but on construction
of the trial court’s order.
By Supreme Court Rule 10, a “petition for a writ of certiorari will be
granted only for compelling reasons” and is “rarely granted when the asserted
error consists of erroneous factual findings or the misapplication of a properly
stated rule of law.” Id.

These irrelevant materials, listed as “other authorities,” take up more than two full singlespaced pages of Petitioners’ Table of Authorities, and Petitioners include the full text of seven
more in the Appendix itself at pp.113a et seq. along with a transcript of Child’s testimony after
isolation of many months from Respondent and the rest of his family but not his contrary
testimony in the consolidated PFA hearing after only two weeks of isolation (and many more
contrary statements made to abuse evaluators and others), which testimony is also irrelevant
herein but does illuminate Petitioners’ actual goal in seeking to bring this matter before this
Court. Appendix, pp. 81a et seq.
10

7
Here, the Pennsylvania Superior and Supreme Courts engaged in a
conventional and straightforward workmanlike analysis of the First Amendment
issues presented by the trial court’s order and found that the order was content
neutral because the only restriction was on the connection of the speech to the
child, and not on the message. In making this determination, the courts looked
at the entirety of the order, not just the portions disingenuously extracted by
Petitioners, and found that the trial court had expressly limited application of the
order to information that could identify the child and expressly noted that the
order would not preclude Petitioners’ testimony on the subject or declaration of
their dissatisfaction with the court or its rulings, or any other speech aside from
direct or indirect identification of the child.
A careful review of this language reveals that, contrary to Appellants'
assertions, the gag order in no way silences them from expressing all
of their views on important issues relating to the custody proceeding.
. . . The only limitation on Appellants' speech lies in the manner of
communication, as they are precluded from conveying such public
speech in a way that exposes Child's identity and subjects him to
harm. . . . As noted, once Appellants remove from the public domain
the enumerated information found to be harmful to Child, they are
free to criticize the trial court's decision, assuming they do so in a
manner that does not disclose Child's identity.
S.B. v. S.S., 243 A.3d 90, 107 (2020).
Review of every word of the Petition reveals that it is not the Pennsylvania
courts’ First Amendment review of the order that troubles Petitioners, it is the

8
courts’ construction and interpretation of the language of the order.11 That issue
they have not raised here nor ever raised. Instead, they petition this Court and
argue with vigor as though the Pennsylvania courts had read the order just as
they do, even going so far as to omit in their Petition the trial court’s language
most central to the Pennsylvania courts’ review.12

As Petitioners have not

addressed the Pennsylvania courts’ construction of the order, much less objected
to it in this Court or below, they should be stuck with it. Unless this Court sua
sponte overrules the construction of both Pennsylvania courts, the argument of
Petitioners unravels entirely.
The Pennsylvania court began by acknowledging the applicable standards
of review for content-based and content-neutral speech as set forth by this Court.
S.B., p.105, citing Reed v. Town of Gilbert, 576 U.S. 155 (2015). Having found
that the order restricts only identification of the child, the court examined
whether that restriction is content-based to ascertain the standard of review. The
Pennsylvania courts relied on this Court’s analysis in Reed, supra, which provides

One might think that if Petitioners believed the order proscribed all speech as they argue, they
would be relieved to hear from the Pennsylvania courts that only their identification of the child
was restrained and to happily rely on that limitation, but, as evidenced by their conduct
throughout this case, their goal has never been to vindicate their First Amendment rights, but to
create opportunities to air their grievances about the underlying custody order, ideally with press
attention, as an appeal to this Court would afford.
11

Outrageously, in their Statement of the Case (Petition, pp.6-7), Petitioners reproduce the
portion of the order that is more convenient for their argument but omit without acknowledgement
thereof the language from the trial court’s order that is principally relied upon by the appellate
courts. Appendix, p.74a (“This Order does not prohibit any party or counsel from publicly speaking
or expressing an opinion about the Judge. . . However, such expression shall NOT contain the
name of the Child or other information, which would tend to identify the Child.”) (emphasis
original). The Petition simply pretends this language does not exist, and that the Pennsylvania
Courts had not found the restraint on their speech to be limited thereby.
12

9
that “[g]overnment regulation of speech is content based if a law applies to a
particular speech because of the topic discussed or the idea or message
expressed.” (S.B. at 105, quoting Reed at 163), and “[a] restriction is content based
if either the face of the regulation or the purpose of the regulation is based upon
the message the speaker is conveying.” (Id.) As pointed out by the Pennsylvania
courts, this Court has explained that “[t]he principal inquiry in determining
content neutrality . . . is whether the government has adopted a regulation of
speech because of disagreement with the message it conveys.”

S.B. at 106,

quoting Ward v. Rock Against Racism, 491 U.S. 781, 791, 109 S.Ct. 2746, 105
L.Ed.2d 661 (1989). “So long as the regulation of speech is not a means, subtle or
otherwise, of exercising content preference, it is not presumed invalid.” S.B. at
105, citing Turner Broad. Sys. Inc. v. FCC, 512 U.S. 622 (1994).
From the express limitation stated in the trial court’s order to speech
tending to identify the child, the court determined that it is not the message or
topic that underlay the court’s action, much less the trial court’s disagreement
with it, but the connection of that message to the child and the harm to the child
that was likely to result.13

Petitioners are unfettered to proclaim their

considerable dissatisfaction with the underlying custody order, regardless of the
truth of their factual assertions, so long as they shield the minor child from the
It’s not difficult to imagine the profound stigma suffered by a child whose peers and their
parents had been falsely led by Petitioners to believe he has been anally raped since infancy by
his father, with whom he continues to reside, and likely has an ongoing sexual relationship with
him. Who would permit their children to associate with him, much less come to his home? Who
would permit their child to date him? And who would want to befriend a child so surely and
deeply damaged?
13

10
harm that would result by exposure of his identity in connection with their
speech.
Having found the order to be content-neutral, the state court compared the
applicable standards of review articulated by this Court in U.S. v. O'Brien, 391
U.S. 367 (1968)14 and Clark v. Community for Creative Non-Violence, 468 U.S.
288 (1984),15 and pointed out that this Court has noted that the two standards
differ little, if at all. S.B. at 106, citing Community for Creative Non-Violence at
298. The Pennsylvania court found that all four O’Brien factors were met. There
is no question that the trial court had the power to enter the order.

The

restriction, as limited to severing the connection between Petitioners’ speech and
Child but not otherwise restraining Petitioners’ speech, was no greater than
essential to protect the child. As already determined, the order was not entered
in order to suppress the content of Petitioners’ speech, but to protect Child, and
that protection is undoubtedly an important government interest, as this Court
has acknowledged in Sable Communications of Cal. v. FCC, 492 U.S. 115, 126

A content-neutral regulation of speech passes constitutional muster if it satisfies the
following four-part standard set forth by the High Court in United States v. O'Brien,
supra: (1) the regulation was promulgated within the constitutional power of
government; (2) the regulation furthers an important or substantial governmental
interest; (3) the government interest is unrelated to the suppression of free
expression; and (4) the incidental restriction on alleged First Amendment freedoms
is no greater than is essential to the furtherance of that interest.
S.B. at 105, citing O'Brien at 377.
14

Time, place and manner restrictions are valid, provided that they: (1) are justified
without reference to the content of the regulated speech; (2) are narrowly tailored to
serve a significant governmental interest unrelated to speech;12 and (3) leave open
ample alternative channels for communication of the information.
S.B. at 105, citing Community for Creative Non-Violence at 293.
15

11
(1989) ("there is a compelling interest in protecting the physical and psychological
well-being of minors"). S.B. pp.107-111.
Next the court examined the order for vagueness, pointing out that this
Court does not require an exhaustive and specific list of proscribed actions but
that so long as an “ordinary person exercising ordinary common sense can
sufficiently understand and comply with” an order, it is not impermissibly vague.
S.B. at 111-112, citing Papachristou v. City of Jacksonville, 405 U.S. 156 (1972);
Minn. Voters Alliance v. Mansky, 138 S.Ct. 1876 (2018), and Broadrick v.
Okla., 413 U.S. 601, 608 (1973). The court found the trial court’s order not to be
impermissibly vague inasmuch as Petitioners16 should be capable of anticipating
the meaning of not speaking “publicly about the custody matter in a manner that
will disclose Child's identity,” or “direct[ing] or encourag[ing]” others to do so.
S.B. at 112.
3. The opinion below is in harmony with First Amendment
jurisprudence of other states.
Petitioners raise a number of bases for intervention by this Court, but each
is colored by tortured misapplication and/or misrepresentation of the law and the
decisions of the Pennsylvania and other state courts.
Petitioners claims that “the opinion below squarely conflicts with all other
state high court decisions considering such family court gag orders.” Petition, p.9.
By this argument, Petitioners attempt to segregate family court orders limiting

Petitioners are two attorneys and a medical doctor who can be assumed to have at least ordinary
intelligence.
16

12
speech from other First Amendment jurisprudence, as though courts cannot
apply constitutional standards absent a decision of this Court with an identical
fact pattern. Next, they misrepresent dissimilar decisions of state courts to
attempt to create the illusion of disagreement among state courts of last resort
on the central question. This case creates no confusion among state courts as to
whether speech can be limited, nor as to how to determine whether a particular
order has done so permissibly under the Constitution. Petitioners’ litany of
“conflicting” decisions is a red herring.
First, Petitioners reference Bey v. Rasawehr, 161 N.E.3d 529, 533 (Ohio
2020), arguing that the Ohio Supreme Court’s decision to vacate an order
proscribing online harassment of an adult conflicts with this case, but Bey is
distinguishable. Petitioners argue that the use of the word “about” designates
the restriction herein as content-based as the Ohio court found it did in that case.
However, both of the Pennsylvania appellate courts found that regardless of
selected individual words in the trial court’s order, the overall language of the
order firmly establishes that it is not the topic of Petitioners’ speech that is
constrained; it’s the connection of it to the child. It’s true that Petitioners are not
precluded from disclosing the identity of the child in discussion of matters not
“about” their allegations of abuse since the Order was properly tailored to protect
the child from a specific identified harm, but they are also not precluded from
airing their allegations “about” abuse, just from connecting them to the child.
Further, according to Petitioners, Bey establishes that psychological harm to

13
adults cannot justify a restraint on content-based speech. This is disingenuous,
as Child is not an adult, and the protection of children is undeniably a compelling
government interest. See Sable Communications, supra at 126. See also D.P. v.
G.J.P., 636 Pa. 574 (2016); Hiller v. Fausey, 904 A.2d 875, 886 (Pa.2006) ("the
compelling state interest at issue in this case is the state's longstanding interest
in protecting the health and emotional welfare of children").
Next, Petitioners argue that the decision under consideration herein
conflicts with In re R.J.M.B., 133 So.3d 335, 339-346 (Miss. 2013), wherein the
Supreme Court of Mississippi examined the constitutionality of a gag order on
participants in ongoing legal proceedings in youth court. The interest at issue in
that case was the integrity of the legal process, and no question was raised as to
whether the restriction was content-based. Accordingly, this case is simply not
analogous.
Third, Petitioners argue that the Pennsylvania decision conflicts with the
decision of the Supreme Court of Hawaii in In Interest of FG, 421 P.3d 1267 (Haw.
2018) which precluded disclosure of the names of children in the foster care
system. However, the decision in that case was overturned not because it violated
the First Amendment, but because the lower court failed to adequately consider
that question as the Pennsylvania court did. The Hawaii case is inapposite.
The same is true of Care and Protection of Edith, 659 N.E.2d 1174, 117576 (Mass. 1996), in which the Massachusetts Supreme Court vacated an order
because the lower court had not held a hearing and entered findings or identified

14
a state interest for protection, as the Pennsylvania court did in this case. There
is no parallel to this case where a full constitutional analysis was undertaken.
Petitioners also reference Shak v. Shak, 144 N.E. 3d 274, 278-280 (Mass. 2020),
which concerns an order proscribing disparagement by parents of one another.
Petitioners’ argument suffers the same deficiency with regard to this case, in
which the court did not find such speech cannot be limited, but only that no
findings had been made that could underlie such a limitation in that case.
In re Marriage of Suggs, 93 P.3d 161, 163-66 (Wash. 2004), referenced by
Petitioners, concerned an order forbidding harassment of one divorcing spouse by
the other. The only similarity between that case and this is the invocation of the
First Amendment. Notably, while the Washington Supreme Court found that the
order before them was impermissibly vague, they noted that they “can conceive
of circumstances where a trial court could draft a constitutionally sound
antiharassment order restraining the speech that appears implicated in the order
here.” Id. at 166 (emphasis supplied).
Next Petitioners invoke the Supreme Court of Nevada in Johanson v.
Eighth Judicial Dist. Court of State of Nev. ex rel. County of Clark, 182 P.3d 94,
96-100 (Nev. 2008). There a judge, sua sponte and without notice, sealed a case
and issued a universal gag order as to all information about a divorce case to
protect one of the parties, a former fellow judge, in his effort to get reelected. The
court found the order to be impermissibly vague and overbroad, and that it was
an unconstitutional abridgement of content-based speech. In that case, there was

15
no dispute as to whether the proscription was content-based, and there was no
overlap between the interests at issue in that case and this one. Accordingly,
again, Petitioners attempt to distract this Court with an inapposite case.
Finally, Petitioners cite In re N.B., 146 A.3d 146 (N.H. 2016), wherein the
trial court restrained an adoptive grandmother from disclosure of information
relating to the abuse and neglect of the children while in the care of child
protection services, and directed that any future lawsuits by her relating to these
matters must be filed under seal. She did not appeal that portion of the order
that might be analogous to this case, but the New Hampshire court noted that
the trial court had balanced the grandmother’s “right to free speech against the
children's right to privacy and the State's interest in protecting that privacy,” (Id.
at 148), and acknowledged that “the asserted interests of [the agencies] in
guarding the identities and privacy of the children . . . are compelling”. Id. at
151.
Petitioners provide not a single example of a state court decision that
actually conflicts with the decision they seek to bring before this Court, nor can
they. State courts are in harmony in their consideration of the relevant First
Amendment jurisprudence, which was properly applied in this case.
4. The opinion below offers nothing new to other courts.
The next reason for Certiorari put forth by Petitioners is that this Court
must head off the ‘gravitat[ion] to Pennsylvania’s erroneous ruling as the most
recent and “enlightened” view of First Amendment law.’ Petition at 12. For this,

16
they inexplicably present decades-old refusals to hear intermediate state
appellate court rulings in Michigan and Illinois with no precedential importance.
Petitioners cite In re Macomb Daily, 620 N.W.2d 10 (Mich. 2000) and In re Detroit
Free Press, No. 210022, 1999 WL 33409948 (Mich. Ct. App. Nov. 23, 1999), both
concerning a single gag order that had not been appealed by the parties at the
time it was entered, and was later consented to by all parties but challenged by
the press before the Michigan Supreme Court declined to hear it. Petitioners’
reference to this case about press freedom appears to be rooted in a false idea that
any reference to the First Amendment is analogous, but there is no nexus to this
case.
Petitioners’ invocation of 33-year-old In Interest of Summerville, 547
N.E.2d 513 (Ill. App. Ct. 1989) is more mysterious still. In that case, the Illinois
Court of Appeals found a gag order to be impermissible because the lower court
had not entered appropriate findings as to the potential harm of the proscribed
speech. That case was reversed and remanded to the trial court, with no holding
that supports Petitioners’ enigmatic argument herein.
Having claimed that “the opinion below squarely conflicts with all other
state high court decisions considering such family court gag orders” (Petition,
p.9), Petitioners reference their first case that is actually similar to this case,
wherein the Illinois Court of Appeals in 1994 upheld a speech restriction far
broader than the one here.
facts herein:

The facts of that case are strikingly similar to the

17
Following a hearing on the father's custody petition and the State's
petition for adjudication, the trial court ruled on August 17, 1993,
that J.S. was a neglected minor and awarded the father sole custody
of J.S. The court's written order specifically found that the mother
had caused the child's emotional environment to be injurious
"through her obssession [sic] with proving that the minor's father * *
* has sexually abused the minor. * * * Mother physically17 abused
the minor * * * for the purpose of attempting to prove that * * * [the
father] sexually abused the minor." The court also found that "the
evidence establishes overwhelmingly that the father * * * did not
sexually abuse" J.S.
In re J.S., 640 N.E.2d 1379, 1381 (Ill. App. Ct. 1994). In J.S., the Illinois Court
of Appeals completed a comprehensive balancing of the competing interests
involved in restricting the mother’s speech by reference to Illinois precedent, and
upheld the order. There, the challenged order was far broader than the one in
this case which precludes only dissemination of information tending to identify
the child. In J.S., in answer to the mother’s request that the restraint on her
speech be limited as the Pennsylvania court limited the speech of Petitioners
herein, the court noted
We fail to comprehend how the mother could discuss with the news
media the scandalous, horrendous details of sexual abuse that she
alleges occurred while keeping confidential the identity of the alleged
victim.
Id. at 1385. Petitioners make much of the court’s observation that “We fail to see
the necessity of discussing the details of this case with the news media” (Id. at
1383) as though it was central or even material to its findings. It was not. This,
again, is a red herring, despite the eerie similarity in facts, as there is no conflict

It should be noted that Respondent has not alleged that Petitioner physically abused Child, but,
as the custody evaluator in the underlying custody case testified, Petitioner’s conduct was a
particularly egregious form of emotional abuse.
17

18
between the First Amendment analysis of this intermediate state court and this
case or other sound First Amendment jurisprudence, nor does it support or
explain in any way Petitioner’s argument that courts will somehow be attracted
to this Pennsylvania case. Petitioners’ smoke and mirrors cannot obscure their
failure to establish a “gravitational” pull by this conventional, properly decided
Pennsylvania case.
5. The free speech rights of custody litigants are not
extraordinary nor unlimited.
Next Petitioners argue that “[t]he free speech rights of parents and their
attorneys

require

definitive

protection,

especially

when

they

question

governmental action.” Petition, p.14. By “definitive,” Petitioners appear to argue
that no restraint can ever be placed on the speech of the special category of
aggrieved custody litigants and their counsel when they disagree with a custody
court’s decision, regardless of competing interests. This is a patently ludicrous
argument that barely merits consideration, but if such a holding is not what
Petitioners actually hope to receive from this Court, it serves as the blanket under
which Petitioners smuggle into their Petition the real cargo: They are extremely
unhappy about the underlying custody decision, and they have an agenda.
6. There is no special First Amendment problem in family
courts.
Having smuggled in their cargo, Petitioners proceed to unpack it with their
next argument, that a failure to provide “definitive protection” to “[t]he free
speech rights of parents and their attorneys” is a great big problem this Court

19
must solve. Although they argue that the speech of custody litigants and their
counsel should be afforded truly extraordinary protection, Petitioners offer no
rationale for why these cases should be treated differently than other cases about
the restraint of speech under the First Amendment. On the contrary, Petitioners
point out that “[a]lthough the number of un-appealed gag orders is not
documented, state intermediate appellate courts have routinely reversed them
when challenged” (Petition, pp.17-18), highlighting that proper consideration of
First Amendment principals yields protection of speech where it is not outweighed
by other important interests. That is, by Petitioners’ own argument, this is not a
problem that needs fixing. Nor is the specter raised by Petitioners of gag orders
relating to speech to children by parents a problem that has anything to do with
this case at all. Instead, it appears, Petitioners hope to ensnare this Court’s
attention by tossing out keywords designed to incite rage.
One of these keywords is “tsunami,” as Petitioners caution that the
Pennsylvania decision will fling open the doors to courts trampling the First
Amendment rights of unhappy custody litigants like overzealous Black Friday
sale shoppers. For this, they cite Justice Wecht’s dissent from the Pennsylvania
decision.18 However, as the Petition illustrates, whether and how to curtail

In his dissent, Justice Wecht declared that the trial court order would not survive strict
scrutiny, but his assessment rests on a reading of the order, like Petitioners’, that ignores the
trial court’s express limitation of the proscription to information tending to identify the child, as
there can be little doubt that the order as so limited is the most narrowly tailored proscription
available to advance the compelling government interest in protecting Child from harm. That is,
although the Pennsylvania court properly found content-neutral speech to be subject to
intermediate scrutiny, the trial court’s order, as read by the Pennsylvania courts, also survives
strict scrutiny inasmuch as there is no limit on Petitioners’ speech except the absolute minimum
necessary to serve a compelling governmental interest.
18

20
harmful speech for the protection of children is a question that is already
frequently entertained by courts, and the Pennsylvania decision does nothing to
suggest a change in how that question must be answered. Petitioners, and for
that matter Justice Wecht, fail to offer any reason at all to worry that this
Pennsylvania decision will increase the number of trial courts presented with this
question, or encourage them to abandon careful consideration of whether speech
is content-based, and how to balance the competing interests under the First
Amendment. They may disagree with how the Pennsylvania courts construed
the order, but they cannot claim the appropriate First Amendment analysis was
not undertaken. See Supreme Court Rule 10 (certiorari is “rarely granted when
the asserted error consists of erroneous factual findings or the misapplication of
a properly stated rule of law.”)
7. The Pennsylvania courts properly and conventionally
applied appropriate First Amendment precedent to the trial
court’s order.
Finally, the Petition simply takes universal issue with the Pennsylvania
court’s decision, arguing that it is wrong on every point. To do this Petitioners
again ignore the language of the order that limits the restriction to identification
of the child and the Pennsylvania courts’ findings thereof, having omitted that
language from their reproduction of the order in the Petition. See note 12 supra.
Petitioners offer no discussion or alternative analysis of how to construe the
language, and no support whatsoever for their preferred interpretation. In fact,

21
Petitioners make no argument at all that does not rest nakedly on simply ignoring
the express limitation in the order, and the Pennsylvania courts’ findings thereof.
First, Petitioners argue that the trial court’s order is a prior restraint on
speech, but in fact, the Pennsylvania court found there was no restraint on the
content of Petitioners’ speech.

Second, Petitioners argue that the order is

content-based, insisting “There simply is no reasonable analysis to avoid the
obvious fact that the gag order proscribes the content, i.e., the subject and
message of Petitioners’ speech.” Petition, p.21. That is, of course, except the
language of the order itself, which concludes with the clarification that “This
Order does not prohibit any party or counsel from publicly speaking . . .
[except that] such expression shall NOT contain the name of the Child or
other information, which would tend to identify the Child.” Appendix, p.77a.
Perversely, Petitioners argue that the fact that they, and not Respondent, were
subject to the order, which would of course broaden the restraint, proves their
point. However, Respondent and his counsel have never spoken publicly about
this case at all, much less in a way that might be harmful to Child. Contrary to
Petitioners’ assertion, the order does not show a preference for Respondent’s
message. Respondent doesn’t have one.
Petitioners take issue with the finding of the Pennsylvania court that the
order concerns the “target” of the speech rather than the content. By this
argument, Petitioners equate “target” to “intended recipient,” but that is clearly
not the meaning of the Pennsylvania court and Petitioners surely know it, given

22
that it is only the child’s identity that is protected by the order. Rather, the
Pennsylvania court concerned itself with the recipient of the harm, not the
intended recipient of the speech, notwithstanding Petitioners’ specious
argument.
Petitioners argue that the order cannot survive strict scrutiny because
the court did not identify which children it sought to protect.
What group of children are to be protected by family court gag
orders? Sexual abuse victims? Well, the courts below do not believe
[Child]’s testimony that it happened. Children who were not abused,
but think they were? Children who were abused, but deny it?
Children who are not “alienated,” but are afraid of a parent for other
reasons? Depressed children? Happy children? Children with
emotional, physical, substance abuse, educational, or peerrelationship problems? Shy kids? Disappointed kids? Kids who just
defy convention? Adolescents who by nature are embarrassed by any
parent? Maybe, every child involved in a custody case? Or, just
maybe every child, period?
Petition at 24-25. This argument appears to be purely rhetorical, and is difficult
to unpack except as another expression of Petitioners’ dissatisfaction with the
findings in the custody case that Respondent had not abused Child as Petitioner
alleges. In answer to Petitioners’ oblique inquiry, the court sought to protect
this child. Petitioners cite Globe Newspaper v. Superior Court, 457 U.S. 596
(1982) for the proposition that “First Amendment freedoms do not evaporate
simply because the state has in interest in protecting minors—even sex crime
victims—from embarrassment” (Petition at 25) but in fact this Court
acknowledged in that case about press freedom that “the State's interest in

23
protecting minor victims of sex crimes from further trauma and embarrassment”
is a compelling one. Globe at 597.
Petitioners’ next argument, that the order is impermissibly vague and
overbroad, again rests on ignoring an important portion of the text of the trial
court’s order. While the order does appear expansive initially, it concludes with
a clear explanation of what it does not do: It does not limit any speech by
Petitioners except speech that would tend to identify Child. As noted by the
Pennsylvania Supreme Court, the order is unconstitutionally vague if it “fails to
give a person of ordinary intelligence fair notice that his or her contemplated
conduct is forbidden . . .” S.B. at 111, citing Papachristou v. City of Jacksonville,
405 U.S. 156, 162, 92 S.Ct. 839, 31 L.Ed.2d 110 (1972). Any person of ordinary
intelligence can discern that this includes the child’s name and other
information that would indirectly identify him.

As Child has no siblings,

identification of his parents would qualify, as would a combination of other
information that would reveal his identity. An order is not overbroad because it
is vague, nor is it vague because it does not include an exhaustive list of specific
information that must be kept private. Whether or not they are willing to admit
it, Petitioners are of ample intelligence to discern the limit of their conduct, and
it is as narrow as the trial court was able to make it and still accomplish Child’s
protection.
Petitioners conclude their overwrought Petition with a warning that
judges nationwide emboldened by [the Pennsylvania court’s]
holdings will likely propagate its First Amendment transgressions

24
into most of the many thousands of child custody cases litigated
daily. Embracing the potent control gifted them, judges will
enthusiastically push the envelope. The distressing ramifications of
the ruling below are legion. To spare children from embarrassment,
“privacy invasion,” and other ill-defined “harms,” judges under the
precedent below could bar any parents from complaining at board
meetings about grading policies in their son’s school, cheering too
wildly at their child’s basketball game, meeting with their family’s
clergy for guidance on a daughter’s contraception request, publicly
advocating for increased funding for their teen’s substance abuse
treatment, or joining support groups and speaking out for families
with autistic or physically challenged children. Mothers could be
banned from campaigning for more humane conditions in detention
centers or psychiatric facilities where their children reside. Fathers
could be muzzled from publicly decrying institutional indifference to
the exploitation of their sons and daughters in scout troops,
gymnastic teams, locker rooms, theatrical auditions, or the
sanctuary. Any of these developments would be disastrous; recent
history has clearly taught us that when children are at risk silence
is leaden, not golden.
Petition at 28-29. The irony of this argument, in light of the fact that it is
Petitioners’ speech that puts this child at risk, is undoubtedly unintentional.
Petitioners are arguing that this Pennsylvania case, with its conventional
workmanlike First Amendment analysis by reference to longstanding precedent
of this Court leading to an outcome with which they disagree, is somehow so
special that this Court’s failure to overturn it ensures a constitutional
apocalypse. But there is nothing special about this case. It does not announce
new law. The Pennsylvania court enunciated no “holdings” that depart in any
way from other proper review of a restriction of speech under the First
Amendment by this Court or other state courts. Petitioners disagree with the
state courts’ construction of the trial court’s order, but they have never raised
that question and they do not argue it here. Nevertheless, Petitioners appear to

25
be claiming that the Pennsylvania Supreme Court has announced an important
new rule that parents simply may never talk about their children to anyone,
which unscrupulous custody judges all across the country have been waiting
impatiently to exploit. Whether or not this is the most hyperbolic argument this
Court has ever entertained, Petitioner’s claims aren’t credible just because
they’re breathless.
This case is unexceptional.

The Pennsylvania court was tasked with

understanding the trial court’s order, and they elevated the language therein
that clearly limited its application to speech that would tend to identify the child,
contrary to Petitioners’ insistence on ignoring that language. Petitioners may
disagree with their construction, but it hardly shatters the earth. The
Pennsylvania courts conventionally applied established precedent of this Court
to determine whether the restrained speech was content based and then
conventionally applied established precedent of this Court to determine whether
the restraint was permissible under the Constitution. They found that an order
that limited Petitioners’ right to identify a child in conjunction with
dissemination of misleading and dangerous information about him was narrowly
tailored for the protection of the child and permissible under the First
Amendment. That is all. There is nothing to see here, much less an impending
apocalypse to avert, and this Court has important things to do.

26
CONCLUSION
Accordingly, and for the reasons set forth above, the Petition for Writ of
Certiorari should be denied.

Respectfully submitted,

___________________________
Elisabeth Pride, Esq.
Pride Law LLC
4607 Library Road
Suite 220 #438
Bethel Park, PA 15102
412-343-3183
epride@pride-law.com
Counsel of Record
Counsel for Respondent

